Six International Freight Forwarding Companies Agree to Plead Guilty to Criminal Price-Fixing Charges
This document is available in three formats: this web page (for browsing content),
PDF (comparable to original document
formatting), and
WordPerfect. To view the PDF you will need Acrobat Reader, which may be downloaded from the Adobe site.  For an official signed copy, please contact the
Antitrust Documents Group.
FOR IMMEDIATE RELEASE
THURSDAY, SEPTEMBER 30, 2010
WWW.JUSTICE.GOV
AT
(202)  514-2007
TDD (202) 514-1888
SIX INTERNATIONAL FREIGHT FORWARDING COMPANIES AGREE TO PLEAD
GUILTY TO CRIMINAL PRICE-FIXING CHARGES
Companies Agree to Pay a Total of $50.27 Million in Criminal Fines
WASHINGTON — Six international freight forwarders have agreed to plead guilty and to
pay criminal fines totaling $50.27 million for their roles in several conspiracies to fix a variety of
fees and charges in connection with the provision of freight forwarding services for international
air cargo shipments, the Department of Justice announced today. These are the first charges filed
as a result of the department's antitrust investigation of the freight forwarding industry.
According to charges filed separately today in U.S. District Court for the District of
Columbia, six companies-EGL Inc., a Houston-based company; Kühne + Nagel International AG,
based in Schindellegi, Switzerland (K+N); Geologistics International Management (Bermuda)
Limited, based in Hamilton, Bermuda; Panalpina World Transport (Holding) Ltd., based in Basel,
Switzerland; Schenker AG, based in Essen, Germany; and BAX Global Inc., a Toledo, Ohio-based company-engaged in one or more separate conspiracies to impose certain charges or fees on
customers purchasing international freight forwarding services for cargo freight destined for air
shipment to the United States during various periods between 2002 and 2007.
Under the plea agreements, which are subject to court approval, the six companies have
agreed to pay the following criminal fines: EGL, $4,486,120; K+N, $9,865,044; Geologistics,
$687,960; Panalpina, $11,947,845; Schenker, $3,535,514; and BAX Global, $19,745,927.  Each
company has also agreed to cooperate with the department's ongoing antitrust investigation.
Freight forwarders manage the domestic and international delivery of cargo for customers
by receiving, packaging, preparing and warehousing cargo freight, arranging for cargo shipment
through transportation providers such as air carriers and steamship lines, preparing shipment
documentation, and providing related ancillary services.
"The department's investigation uncovered six different conspiracies harming businesses
and consumers in the United States and across the globe," said Christine Varney, Assistant
Attorney General in charge of the Department of Justice's Antitrust Division.  "Our investigation
continues in this important industry."
According to the charges, the companies carried out the various conspiracies by, among
other things, agreeing during meetings and discussions to coordinate various charges and fees on
customers purchasing international freight forwarding services for cargo freight destined for air
shipment to the United States.  The six alleged conspiracies being charged today are:
A global conspiracy that took place from March 2003 to October 2007, to impose
an Air Automated Manifest System (AAMS) fee on international air shipments of
cargo to the United States, in which EGL, Geologistics and Panalpina and others
participated;
A conspiracy that took place from July 2004 to October 2007, to impose an
AAMS fee on shipments from Germany to the United States, in which K+N,
Schenker and others participated;
A conspiracy that took place from March 2004 to October 2007, to impose an
AAMS fee on shipments from Switzerland to the United States, in which K+N
and others participated;
A conspiracy that took place from October 2002 to October 2007, to impose a
New Export System (NES) fee on international air shipments from the United
Kingdom to the United States, in which EGL, K+N, BAX and others participated;
A conspiracy that took place from July 2005 to June 2006, to impose a Currency
Adjustment Factor (CAF) on international air shipments from China to the United
States, in which K+N, Panalpina, Schenker, BAX and others participated; and
A conspiracy that took place from August 2005 to December 2007, to impose a
Peak Season Surcharge (PSS) on shipments from Hong Kong to the United States,
in which K+N, Panalpina, Schenker, BAX and others participated.
Each company is charged with price fixing in violation of the Sherman Act, which carries
a maximum fine of $100 million per offense for corporations.  The maximum fine may be
increased to twice the gain derived from the crime or twice the loss suffered by the victims of the
crime, if either of those amounts is greater than the statutory maximum fine.
Today's charges are the result of a joint investigation into the freight forwarding industry
being conducted by the Antitrust Division's National Criminal Enforcement Section, the FBI's
Washington Field Office and the Department of Commerce's Office of Inspector General.
Anyone with information concerning price fixing or other anticompetitive conduct in the freight
forwarding industry is urged to call the Antitrust Division's National Criminal Enforcement
Section at 202-307-6694 or visit www.justice.gov/atr/contact/newcase.htm or call the FBI's
Washington Field Office, at 202-278-2000.
###
10-1104